No. 20-5760

IN THE SUPREME COURT OF THE UNITED STATES

 

DANIEL FREDERICKSON, Petitioner,
v.

STATE OF CALIFORNIA, Respondent.
CERTIFICATE OF SERVICE

I, Douglas Ward, a member of the Bar of this Court, hereby certify that my
business address is 350 Bay Street, P.M.B. #199, in the County of San Francisco and
the City of San Francisco California, Telephone (415) 494-9252; that on October 26,
2020, I served, pursuant to Supreme Court Rule 29, one true copy of the REPLY
TO BRIEF IN OPPOSITION in the above-entitled matter on the following parties
by placing same in an envelope addressed as follows:

Ms. Tami Hennick Supreme Court of California

Deputy Attorney General Attn: Ms. April Boelk

110 W. “A” Street, Suite 1100 Automatic Appeals Unit Supervisor

San Diego, California 92101 350 McAllister Street, Ist Floor

(Respondent) San Francisco, California 94102

And by Electronic Mail to: And by electronic mail:

Tami.Hennick@doj.ca.gov April.boelk@jud.ca.gov

Ronald.Jakob@doj.ca.gov

Mr. Daniel Frederickson Office of the State Public Defender

K81800 CSP-SQ, 2-EB-3 Attn: Peter Silten

San Quentin, California 94974 1111 Broadway, 10 Floor

(Petitioner) Oakland, California 94607
(Assisting Entity)

And by electronic mail:
Peter.Silten@ospd.ca.gov

Each envelope was then sealed and deposited in the United States mail at
Oakland, California with first class postage thereon fully prepaid. All persons
required to be served have been served.

I declare under the penalty of perjury under the laws of the State of
and correct.

 
